Department of Homeland Security
   Ofﬁce of Inspector General

     DHS Department-wide Management of 

            Detection Equipment 

                (Redacted)
 





OIG-11-47                          March 2011
                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                      MAR 01 2011 

                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the strengths and weaknesses of the department’s management of
detection equipment. The report identifies measures that the department can take to
enhance its overall effectiveness. It is based on interviews with employees and officials
of relevant agencies and institutions, direct observations, and a review of applicable
documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust that this report will result in more effective, efficient, and economical operations.
We express our appreciation to all who contributed to the preparation of this report.


                                      Anne L. Richards
                                      Assistant Inspector General for Audits
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1
 


Background ..........................................................................................................................2
 


Results of Audit ..................................................................................................................5
 


     Management of Detection Equipment ...........................................................................5 

     Recommendations........................................................................................................11 

     Management Comments and OIG Analysis ................................................................11 


Appendixes
     Appendix A:           Purpose, Scope, and Methodology.......................................................14 

     Appendix B:           Management Comments to the Draft Report .......................................16 

     Appendix C:           Major Contributors to This Report ......................................................24 

     Appendix D:           Report Distribution ..............................................................................25 


Abbreviations
     CBP                         United States Customs and Border Protection 

     DHS                         Department of Homeland Security 

     DNDO                        Domestic Nuclear Detection Office 

     DOD                         Department of Defense 

     FAR                         Federal Acquisition Regulation 

     FPS                         Federal Protective Service 

     HSAR                        Homeland Security Acquisition Regulation 

     FEMA                        Federal Emergency Management Administration 

     FLETC                       Federal Law Enforcement Training Center 

     ICE                         Immigration and Customs Enforcement 

     JRC                         Joint Requirements Council 

     OCPO                        Office of the Chief Procurement Officer 

     OIG                         Office of Inspector General 

     PRD                         Personal Radiation Detector 

     TASC                        Transformation and Systems Consolidation 

     TSA                         Transportation Security Administration 

     USCG                        United States Coast Guard 

     USCIS                       United States Citizenship and Immigration Services 

     USSS                        United States Secret Service 

OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                 The Department of Homeland Security’s components use detection
                 equipment, such as explosive, metal, and radiation detectors, to
                 accomplish their respective missions when screening passengers,
                 baggage, and cargo. The department spent about $1.3 billion from
                 fiscal year 2007 through first quarter fiscal year 2010 to acquire
                 this equipment, and the components reported about $3.2 billion of
                 detection equipment in their respective inventories. We performed
                 this audit to determine whether the department identifies and
                 acquires detection equipment in an efficient and effective manner
                 to support component mission needs.

                 The department can improve management of its detection
                 equipment by using strategic sourcing principles that it has applied
                 to the acquisition of other commodities, such as law enforcement
                 officer firearms and ammunition The department does not have a
                 logistics process in place to facilitate strategic sourcing of
                 detection equipment. Strategic sourcing would require that
                 management standardize equipment purchases for explosive,
                 metal, and radiation detection equipment; identify common
                 mission requirements among components; and develop standard
                 data elements for managing the inventory accounts of detection
                 equipment. Improving its management of detection equipment
                 will offer the department opportunities to streamline the
                 acquisition process and improve efficiencies.

                 We are making two recommendations that, if implemented, will
                 improve the department’s overall management of detection
                 equipment. The department agreed in principle to the
                 recommendations and provided information about actions it plans
                 to take in response to the recommendations.




               DHS Department-wide Management of Detection Equipment 


                                       Page 1 

________________________________________________________________________________________________



Background
                        One of Secretary Napolitano’s top priorities is unifying the
                        Department of Homeland Security’s (DHS) 22 components into
                        “One DHS.” Secretary Napolitano initiated the DHS Efficiency
                        Review as part of her effort to create a leaner, smarter, and more
                        efficient department. The Efficiency Review team has identified
                        potential efficiencies in the acquisition process by consolidating
                        purchases and implementing strategic sourcing as a best practice.
                        Strategic sourcing increases acquisition efficiencies and enhances
                        mission performance through department-wide acquisitions.

                        DHS has eight different procurement offices that purchase
                        detection equipment. In 2004, the department created the Office of
                        Procurement Operations to provide acquisition services to
                        components that did not have a procurement office. Each of the
                        remaining seven offices is at the component level, and each has its
                        own head of contracting. These components are as follows:

                            �   Customs and Border Protection (CBP)
                            �   Federal Emergency Management Administration (FEMA)
                            �   Federal Law Enforcement Training Center (FLETC)
                            �   Immigration and Customs Enforcement (ICE)
                            �   Transportation Security Administration (TSA)
                            �   United States Coast Guard (USCG)
                            �   United States Secret Service (USSS)

                        Components maintain separate inventories for their detection
                        equipment. For fiscal year 2010, the components had a combined
                        inventory of more than $3.2 billion of detection equipment, most
                        of which is deployed. TSA and CBP omitted some equipment
                        items in their responses to our data call request. For example, TSA
                        did not include its personal and hand-held radiation detectors, and
                        CBP did not include its walk-through metal detectors. TSA and
                        CBP subsequently provided the inventory data after we determined
                        that they were missing from the original submissions and requested
                        the data for those items. The components purchased an average of
                        about $387 million of detection equipment in each of the last 3
                        years, ranging from about $280 million to $511 million. This
                        equipment includes metal detectors, explosive detection systems,
                        and radiation detectors (including some personal protective safety
                        equipment) for screening people, baggage, and cargo at airports,
                        seaports, and land ports of entry, as well as federal buildings.
                        Figure 1 depicts the department’s universe of detection equipment
                        by component as reported by the components, as of March 2010.

                     DHS Department-wide Management of Detection Equipment

                                             Page 2
  Figure 2 depicts the type and value of detection equipment owned
  by the department as of March 2010.




  The Federal Protective Service (FPS) provides security for the
  nearly 9,000 government buildings managed by the General
  Services Administration. However, FPS uses funds from fees
  collected for protection services to lease or purchase its detection
  equipment. The recent $25 million dollar contract for x-ray
  detection equipment is not part of DHS’ budget, nor does the
  department own any of the equipment FPS uses to carry out its
  mission. Therefore, FPS’ detection equipment is not included in
  the above DHS inventory information.

DHS Department-wide Management of Detection Equipment

                       Page 3
  DHS’ Office of the Chief Procurement Officer (OCPO) is
  responsible for oversight of most DHS acquisition activities and
  services, including management, administration, and strategic
  sourcing. OCPO responsibilities also include developing and
  publishing department-wide acquisition regulations, directives,
  policies, and procedures. The following are some of the
  regulations and policies OCPO uses to manage its acquisitions:

      �	 The Federal Acquisition Regulation (FAR) consists of sets
         of regulations issued by federal agencies to govern the
         acquisition process. Components may add their own
         regulation to supplement FAR, including Homeland
         Security Acquisition Regulation (HSAR), which
         establishes uniform policies and procedures for all
         acquisition activities within DHS.

      �	 The Office of Management and Budget Implementing
         Strategic Sourcing Memorandum, dated May 20, 2005,
         directs all federal agencies to leverage spending to the
         maximum extent possible through strategic sourcing.

      �	 The Department of Homeland Security Acquisition
         Manual, issued by the Chief Procurement Officer,
         establishes uniform department-wide acquisition
         procedures, which implement or supplement FAR and
         HSAR.

      �	 According to the Integrated Planning Guide for DHS, to the
         maximum extent possible, components will consider,
         identify, and develop long-term plans to accomplish
         activities and investments using DHS’ Strategic Sourcing
         Program.

      �	 Directive 102-01, Acquisition Management, January 2010,
         consolidates DHS acquisition management policy,
         providing the overall policy and structure for acquisition
         management by prescribing additional management
         procedures and responsibilities that augment existing
         policies, regulations, and statutes.

  In addition, the U. S. Government Accountability Office’s 

  “Framework for Assessing the Acquisition Function at Federal 

  Agencies” (GAO-05-218G, dated September 2005) identifies 

  strategic sourcing as a best practice and notes that one way to 

  effectively manage the acquisition process is by empowering 

  cross-functional teams. 

DHS Department-wide Management of Detection Equipment

                       Page 4
Results of Audit
     Management of Detection Equipment
          DHS can better manage the acquisition of detection equipment by
          developing processes based on best practices such as strategic sourcing.
          Strategic sourcing requires standardizing equipment purchases and
          identifying common mission requirements among components. DHS has
          already made progress in using strategic sourcing for a number of
          commodities. Another best practice is developing standard data
          requirements and nomenclature for inventory management.

          Improved management through best practices would offer DHS
          opportunities to streamline the acquisition process, improve efficiencies,
          and provide uniform equipment inventory information.

                 Strategic Sourcing

                 DHS has established a Strategic Sourcing Program and has applied
                 strategic sourcing strategies for many common use items, such as
                 firearms, ammunition, and office supplies; however, the
                 department is not managing its detection equipment through this
                 program. According to DHS officials, components are encouraged
                 but not required to use the Strategic Sourcing Program and
                 generally do not coordinate and communicate when acquiring
                 detection equipment. There is no mechanism in place for
                 components to standardize equipment purchases or identify
                 common mission requirements among components. For example,
                 the department’s Joint Requirements Council is inactive, and
                 components do not have the expertise of commodity councils or
                 single-item managers to rely on when acquiring detection
                 equipment. Further, components view detection equipment as
                 unique to their missions and do not attempt to identify common
                 mission requirements among other components. This results in
                 numerous inefficient purchases by individual components instead
                 of consolidated purchases.

                 The Office of Management and Budget’s “Implementing Strategic
                 Sourcing” Memorandum, dated May 20, 2005, directs all federal
                 agencies to leverage spending whenever possible through strategic
                 sourcing. Further, according to the DHS Integrated Planning
                 Guide, to the maximum extent possible, components will consider,
                 identify, and develop long-term plans to accomplish activities and
                 investments using the DHS Strategic Sourcing Program.



               DHS Department-wide Management of Detection Equipment

                                      Page 5
       DHS has taken steps to unify component purchasing, address
       procurement issues, and improve control and oversight of assets
       through the Transformation and Systems Consolidation (TASC).
       The department plans to integrate financial, procurement, and asset
       management processes under the Chief Financial Officer’s
       Resource Management Transformation Office. According to the
       director of TASC, the department recently awarded a $450 million
       contract for the TASC system.

       Standardizing Equipment Purchases

       Some components did not standardize equipment purchases and
       purchased a variety of different detection equipment models. For
       example, as shown in figure 3, United States Citizenship and
       Immigration Services (USCIS) has 24 and CBP has 21 different
       models of small x-ray equipment, and CBP and USCIS each have
       14 different models of walk-through metal detectors. Due to time
       constraints, we did not quantify the increased administrative and
       logistic support costs incurred by USCIS and CBP by purchasing
       multiple types of equipment on multiple purchase orders.
       However, DHS is incurring higher procurement administrative
       costs and the components increase logistic support costs for
       maintenance, training, and support when they have multiple
       models of equipment to meet similar missions. TSA, which uses
       and maintains the largest inventory of detection equipment in the
       department, should have experienced reduced procurement
       administrative costs and logistic support requirements by
       purchasing and supporting only seven different models of small x-
       ray equipment and three models of walk-through metal detectors.
       By limiting the number of models and types of equipment, TSA is
       in a position to increase efficiencies in procurement, maintenance,
       and personnel flexibilities. Figure 3 shows the number of models
       in each of the components’ inventories:

       Figure 3. Number of Models of Detection Equipment

 Component                        CBP           USCIS            TSA             ICE*

                                models          models          models           models

 Small x-ray                           21               24               7                5
 Walk-through metal
 detectors                             14               14               3                2
*Not including FPS detection equipment. 


Note: Purchase dates for CIS, TSA, and ICE equipment were not readily available.
 





    DHS Department-wide Management of Detection Equipment 


                                    Page 6
 

  Common Mission Requirements

  We identified about $170 million worth of small x-ray machines,
  metal detectors, and personal and hand-held radiation detectors
  that DHS could acquire through strategic sourcing strategies.
  Although multiple components were using similar equipment to
  meet similar screening missions, each component purchased the
  equipment separately. Components did not coordinate with each
  other to identify common requirements, consolidate purchases to
  gain in buying power, or consolidate logistic support requirements.
  A review of the inventories showed that some components own
  similar models of detection equipment. For example:

      •	 TSA, CBP, and USCIS all reported similar small x-ray
         machine models in their inventories. 

           o	 CBP reported three on hand. 

           o	 TSA reported 568 on hand. 

           o	 USCIS reported 22 on hand. 

      •	 TSA, CBP, ICE, and USCIS reported using similar models
         of walk-through metal detectors, while TSA, CBP, and
         USCIS reported using similar models of walk-through
         metal detectors.
           o	 TSA reported 1,627, CBP reported 10, USCIS
              reported 10, and ICE reported 1 similar models on
              hand.
           o	 TSA reported 121, CBP reported 13, USCIS reported
              10, and ICE reported 2 similar models on hand.
           o	 TSA reported 172, CBP reported 56, and USCIS
              reported 25 similar models on hand.

  Figure 4 shows about $170 million of similar detection equipment
  by component and total item value.




DHS Department-wide Management of Detection Equipment 


                        Page 7 

                                    Figure 4. Inventories of Similar Detection Equipment
                                                                     (By Total Estimated Value)

                                                                                                                 Personal                        Hand-held
                                                                       Walk-through Metal                        Radiation                       Radiation
                                            Small x-ray                    Detectors                             Detectors                       Detectors

    CBP            Est. Value           $14,078,098                    $          364,526                    $ 23,628,172                 $ 20,908,629

  USCIS            Est. Value           $ 2,679,016                     $         271,500                    $             -              $               -

   TSA*            Est. Value           $55,019,736                     $ 13,371,827                         $         99,450             $        502,518

     ICE           Est. Value           $      264,188                  $           18,800                   $             -              $               -

   USCG            Est. Value           $             -                 $                -                   $ 17,556,000                 $ 21,792,000

    Total          Est. Value           $72,041,038                     $ 14,026,653                         $ 41,283,622                 $ 43,203,147

                                                                             Total Value                                                  $ 170,554,460
Source: Department and component inventories.
 

Unit costs varied for similar equipment and not all inventories included all unit costs. Therefore, the amounts presented are estimates and the value may
 

be understated. 



                                       DHS Management Directive 1405, September 2003, established a
                                       Joint Requirements Council (JRC) as a senior-level requirements
                                       review board to identify cross-cutting opportunities and common
                                       requirements among DHS organizational elements for non-
                                       information technology investments. The JRC met periodically
                                       between fiscal years 2004 and 2006. Representatives on the JRC
                                       reviewed programs and processes for potential mission overlap and
                                       redundancies. Among the programs reviewed were TSA’s Secure
                                       Flight and Registered Traveler and CBP’s Consolidated Registered
                                       Traveler programs. In 2006, the JRC stopped meeting after the
                                       department assigned the council chair to other duties and the
                                       remaining council members did not pursue the potential
                                       efficiencies. However, DHS now recognizes the importance of the
                                       JRC and indicated plans to revive the council to identify duplicated
                                       programs and processes across the department. This undertaking
                                       should include an effort to identify common data elements and
                                       nomenclatures within inventories and to establish a data dictionary
                                       for the department’s detection equipment.

                                       In addition to the JRC, commodity councils are an integral element
                                       of developing an effective strategic sourcing program. Commodity
                                       councils include representatives from across the organization. The
                                       members act as the subject matter experts in the acquisition
                                       process and in establishing requirements for a specific commodity
                                       or service. Generally, the component purchasing the largest
                                       quantity of a particular item takes the lead role in acquiring the
                                   DHS Department-wide Management of Detection Equipment

                                                                         Page 8
  commodity or service and may serve as that commodity’s single-
  item manager.

  DHS and other federal agencies use the commodity council
  concept. For example, in 2003, DHS established the Weapons and
  Ammunition Commodity Council to create a department-wide
  strategy for consolidating requirements and gaining economies of
  scale for the acquisition of weapons and ammunition. The council,
  which includes representatives from each component that uses
  weapons, developed requirements for firearms, ammunition, and
  body armor. ICE took the lead role, using service-level
  agreements with other components to establish one overall
  contract, which is available to all DHS entities.

  The Department of Defense (DOD) is another example of a federal
  department using the commodity council concept. In 2003, DOD
  established the DOD-Wide Strategic Sourcing Program. The
  program established three department-wide commodity councils
  that support the acquisition of the following services:

      �	 Hand-held wireless communications devices and services,
         led by the U.S. Army and U.S. Air Force
      �	 Clerical support services, led by the U.S. Navy
      �	 Medical health care services, led by the U.S. Army

  Inventory Data

  The inventory systems DHS and its components use are not based
  on standard inventory data elements and standard nomenclature for
  similar detection equipment. Currently, DHS is unable to view
  consolidated inventory information on detection equipment and
  must rely on data calls to determine its inventory, including type,
  model, and value of equipment on hand. Each component
  manages its inventory through eight separate asset management
  inventory systems that do not interface, are not compatible, and do
  not use standardized data descriptions or nomenclatures based on a
  uniform data dictionary. DHS does not have an effort in place to
  identify and assign common data elements to these inventory
  systems. Without a common data dictionary based on common
  data elements and nomenclature, the department does not have
  timely visibility over the on-hand balances. Also, the department
  may not be able to evaluate its detection equipment requirements
  and develop a disciplined logistics function to manage its detection
  equipment.



DHS Department-wide Management of Detection Equipment

                       Page 9
  The “Framework for Assessing the Acquisition Function at Federal
  Agencies” (GAO-05-218G, dated September 2005) emphasizes
  data stewardship as a critical success factor in managing
  information systems. It identifies the need for consistency among
  data definitions, sources, controls, and edits routines as a best
  practice.

  Seven of DHS’ asset management inventory systems are legacy
  systems that existed before DHS. DHS implemented the eighth
  system for headquarters and those components that did not have an
  internal procurement function. The component legacy systems
  support their respective components and continue to operate in a
  stovepipe without interfacing with the department or other
  components. Headquarters relies on data calls from each
  component to gather department-wide inventory information. As
  part of this audit, the components provided us detection equipment
  inventories in response to a data call. The information provided
  was in nonstandard formats, and data elements and nomenclatures
  were not standardized. CBP sent 32,000 lines of data, with some
  entries dated as early as 1940, but its original submission still did
  not include all detection equipment on hand and required a
  followup request to obtain a complete universe. Unless DHS
  establishes a uniform or common data dictionary, the categories
  and data descriptions will vary among the components and the
  department cannot be sure that the inventory data it relies on are
  complete and accurate. For example:

      �	 One component categorized an explosive detection device
         as “detection equipment,” another categorized it as
         “security equipment,” while another categorized it using
         specific equipment names, with the nomenclature including
         the name of the individual assigned the equipment.

      �	 Personal radiation detectors (PRD) were described as—
          o	 Personal Radiation Detector
          o	 PRD
          o	 Radiation Detector
          o	 Personnel radiation detector, with a corresponding
              name of the person assigned this equipment
          o	 Detector Radiation Personal

  To establish control, oversight, and visibility of the component
  inventories and until DHS deploys an integrated system, it needs to
  establish a common data dictionary to standardize data elements
  across component and headquarters systems. Establishing an
  inventory data dictionary will assist DHS in developing strategic

DHS Department-wide Management of Detection Equipment

                       Page 10
          sourcing strategies and support greater efficiencies in its detection
          equipment inventories.

          Conclusion

          Improved management through best practices will assist the
          department and its components by increasing coordination and
          communication and expanding strategic sourcing strategies into
          detection equipment, which will support Secretary Napolitano’s
          priority of “One DHS.” DHS has taken steps to improve control
          and oversight of assets through the recently awarded TASC
          system. However, DHS needs to establish a standard data
          dictionary, consolidate data descriptions, and make sure
          components use consistent inventory terms before it implements
          the TASC system.

Recommendations
       We recommend that the Deputy Under Secretary for Management:

       Recommendation #1: Reestablish the Joint Requirements Council.

       Recommendation #2: Establish a commodity council for detection
       equipment, responsible for:

          �	 Coordinating, communicating, and, where appropriate,
             strategically sourcing items at the department level or
             identifying a single source commodity manager;
          �	 Standardizing purchases for similar detection equipment; and
          �	 Developing a data dictionary that standardizes data elements in
             inventory accounts for detection equipment.


    Management Comments and OIG Analysis
          The department provided written comments, including specific
          comments regarding law enforcement-sensitive information, on
          our draft report. We evaluated these comments and addressed
          them, as appropriate, throughout the report. Below is a summary
          of the department’s written response to our four recommendations
          and our analysis. A copy of the department’s response and a
          summary of its plans and progress for addressing the
          recommendations are included in appendix B.

          The department concurs in principle with recommendations 1 and
          2 but does not concur with recommendations 3 and 4. We
        DHS Department-wide Management of Detection Equipment

                               Page 11
  reviewed the department’s comments on recommendation 3 and
  agree with the department’s position noted below that our
  assessment of the department’s acquisition process for radiological
  and nuclear detection equipment described the process for state
  and local acquisitions. Therefore, we removed this
  recommendation along with the corresponding report section from
  the final report. Since the intent of recommendation 4 will be
  included in the action plans for recommendations 1 and 2,
  recommendation 4 is duplicative and has also been removed from
  the final report. Our summary and analysis of the department’s
  official response follows.

  Management Response on Recommendation #1

  The department concurred in principle: The department said it is
  currently assessing alternatives including potentially reestablishing
  the JRC. Upon completion of this assessment, the Chief
  Procurement Officer will provide a copy of the assessment to the
  Inspector General, accompanied by an action plan for
  implementation of the chosen alternative.

  OIG Analysis: We consider the proposed action to be responsive
  to the recommendation. However, this recommendation will
  remain open and unresolved until we receive and review a copy of
  the assessment of alternatives with a corresponding corrective
  action plan and timetable for completion.

  Management Response on Recommendation #2

  The department concurred in principle: The department said that it
  agrees that an analysis of potential strategic sourcing for detection
  equipment is warranted. The department will perform a business
  case analysis of detection equipment by January 31, 2011. A
  commodity council and/or a working group will be established if
  the analysis determines that some or all of this detection equipment
  should be strategically sourced. If this initiative moves forward,
  OCPO will provide OIG with an implementation timeline.

  OIG Analysis: We consider the proposed action to be responsive
  to the recommendation. However, this recommendation will
  remain open and unresolved until we receive and review a copy of
  the strategic sourcing business case analysis and a corresponding
  corrective action plan and timetable for completion if the initiative
  goes forward.



DHS Department-wide Management of Detection Equipment

                       Page 12
  Management Response on Recommendation #3:

  Recommendation #3 requires higher minimum standards for
  radiological and nuclear detection equipment based on Domestic
  Nuclear Detection Office (DNDO) recommendations.

  The department did not concur: The department clarified its
  acquisition process for purchasing radiological and nuclear
  detection equipment and pointed out that the process identified in
  the draft report applies to the acquisition of radiological and
  nuclear detection equipment by state and local governments and
  does not reflect the department’s process. The department noted
  that for DHS radiological and nuclear detection equipment
  requirements, DNDO already collaborates with the respective
  components to determine the appropriate detection equipment that
  meets the particular mission needs and circumstances.

  OIG Analysis: We agree with the department that we outlined
  DNDO’s process for meeting state and local requirements rather
  than federal requirements for purchasing radiological and nuclear
  detection equipment. When we presented the results of our audit
  during multiple discussions with DNDO personnel and other
  component personnel, this distinction was never brought to our
  attention. Since our assessment is not an accurate portrayal of the
  federal process, we removed this recommendation as well as the
  section of the draft report referring to the selection of radiological
  and nuclear detection equipment.

  Management Response on Recommendation #4:

  Recommendation #4 requires updating prescribed internal
  regulatory processes to implement the recommendations above.

  The department did not concur: The department requested that this
  recommendation not be included since the proposed action plan for
  recommendations 1 and 2 does not require regulatory action and
  the action plan for these two recommendations will address
  changes to internal policy and guidance documents.

  OIG Analysis: Since the department plans to address the intent of
  recommendation 4 in its proposed action plans for implementing
  recommendations 1 and 2, this recommendation is duplicative and
  has been removed.




DHS Department-wide Management of Detection Equipment

                       Page 13
Appendix A
Purpose, Scope, and Methodology

                   The objective of our audit was to determine whether the
                   Department of Homeland Security is identifying and acquiring
                   detection equipment in an efficient and effective manner to support
                   component mission needs. We performed this audit to address a
                   request from Senator Charles Schumer regarding the effectiveness
                   of the department’s oversight in identifying and acquiring
                   detection equipment to support component mission needs.

                   We performed the audit at the department and component levels in
                   Washington, DC. Our review included analysis of component
                   inventories of detection equipment such as personal radiation
                   detectors, hand-held radiation detectors, small x-ray equipment,
                   and walk-through metal detectors.

                   We interviewed DHS and component officials in the Office of the
                   Chief Procurement Officer, including Director, Procurement
                   Oversight & Support; Director, Resource Management
                   Transformation Office; Director, Strategic Sourcing Division;
                   Director, Acquisition Systems; and Assistant Director, Personal
                   Property. We also interviewed various officials at the component
                   level, including Customs and Border Protection, Transportation
                   Security Administration, United States Coast Guard, Immigration
                   and Customs Enforcement, and Federal Protective Service.

                   We researched applicable laws and regulations and evaluated
                   various planned initiatives. We reviewed selected contracts for
                   various types of detection equipment owned by components such
                   as CBP and USCG (personal radiation detectors) and CBP (walk­
                   through metal detectors). We examined the inventory reports for
                   new equipment, used equipment, and equipment awaiting disposal
                   at the TSA Logistics Center as of January 22, 2009, and May 13,
                   2010. We did not include detection equipment inventory data for
                   FPS, USSS, and FLETC. Specifically, the FPS inventory of
                   detection equipment is not funded by the DHS budget, and
                   therefore is not owned by DHS. The USSS inventory data posed
                   sensitivity issues, and the FLETC inventory is used for training
                   purposes and therefore did not meet the audit objective.

                   We conducted the audit fieldwork between February and July 2010
                   according to generally accepted government auditing standards.
                   Those standards require that we plan and perform the audit to
                   obtain sufficient, appropriate evidence to provide a reasonable
                   basis for our findings and conclusions based on our audit
                   objectives. We validated the reliability of inventory data for
                   detection equipment by performing limited tests comparing

                 DHS Department-wide Management of Detection Equipment

                                        Page 14
Appendix A
Purpose, Scope, and Methodology

                   component inventory data with information in the Federal
                   Procurement Data System; reviewing selected detection equipment
                   contracts; and reviewing recently performed wall-to-wall
                   inventories by our Financial Management Division as conducted
                   by KPMG auditors.




                 DHS Department-wide Management of Detection Equipment 


                                        Page 15 

Appendix B
Management Comment to the Draft Report
________________________________________________________________________________________________




                                                                                      Homeland
                                                 DEC - 62010
                                                                                      Security

           MEMORANDUM FOR:             Anne L. Richards
                                       ~is~t ~s      eel r General for Audits

           FROM:                       ~.             nderson
                                       Deputy Chief Procurement Officer

           SUBJECT:                    Response to Draft OIG Report DHS Department-wide
                                       Management ofDetection Equipment


          In response to your October 22, 2010 memorandum, DRS Department-wide Management of
          Detection Equipment - FOR OFFICIAL USE ONLY (FOUO) OIG Project No: IO-IIO-A UD-
          DHS, attached are the Department of Homeland Security (DHS) comments on the draft report.

          lfthere are any questions, please contact Mr. David J. Capitano, Office of the Chief Procurement
          Officer, at (202) 447-5417 or david.capitano@dhs.gov.

           Attachment




                        DHS Department-wide Management of Detection Equipment 


                                                      Page 16 

Appendix B
Management Comment to the Draft Report


                                                                                       Attachment

                    Deputy Chief Procurement Officer's Response to Draft OIG Report:
                      "DHS Department-wide Management ofDetection Equipment"


          Deputy Chief Procurement Officer's Response to DIG Report Recommendations

          The draft OIG report includes four recommendations. Specific responses to each
          recommendation are provided below.

          Recommendation I: "Reestablish the Joint Requirements CounciL"

          Response: Concur in Principle. The Department is currently assessing alternatives in this
          area, including potential reestablishment of the Joint Requirements Council (JRC). Upon
          completion of this assessment, CPO will provide a copy of the assessment to the IG,
          accompanied by an action plan for implementation of whatever alternative is chosen.


          Recommendation 2: "Establish a commodity council for detection equipment, responsible
          for:
               • Coordinating, communicating, and, where appropriate, strategically sourcing items at
               the department level or identifying a single source commodity manager;
               • Standardizing purchases for similar detection equipment; and,
               • Developing a data dictionary that standardizes data elements in inventory accounts for
               detection equipment."

          Response: Concur in principle. DHS agrees that an analysis of potential strategic sourcing
          for detection equipment is warranted. As such, the department will perfonn a strategic
          sourcing business case analysis of detection equipment. If that analysis yields a
          detennination that some or all of this equipment should be strategically sourced, a
          commodity council andlor a working group will be established. The estimated timeline for
          completion of the business case analysis is January 31, 2011. Should the business case yield
          a detennination that the initiative move forward, the Office of the Chief Procurement Officer
          will provide the IG with a timeline for implementing our strategic sourcing process for this
          initiative.

          Recommendation 3: "Require higher minimum standards for radiological and nuclear
          detection equipment based on DNDO recommendations."

          Response: onconcur. The draft report contains a fundamental misunderstanding of the
          differences between the Department's acquisition of radiological and nuclear detection
          systems for DHS Components, as opposed to the purchasing of radiological and nuclear
          detection systems by state and local law enforcement agencies using FEMA grant funds. The
          process outlined in lhe draft report subsection entitled "Departmental Oversight" prescribes
          the role of DNDO, and the process used by state and local law enforcement organizations to
          acquire radiological and nuclear detection systems. For DHS requirements, DNDO
          collaborates with the requiring organization (e.g., CBP) to determine the appropriate
          radiological and nuclear system that meets the particular needs/circumstances. Furthennore,


                                                                                                          2




                    DHS Department-wide Management of Detection Equipment 


                                                   Page 17
 

Appendix B
Management Comment to the Draft Report


                                                                                          Attachment

                     Deputy Chief Procurement Officer's Response to Draft DIG Report:
                       "DHS Department-wide Management ofDetection Equipment"


          implementation of Recommendations 1 and 2 will provide additional assurance that the
          Department's acquisition and management of detection equipment includes the selection of
          the most appropriate products for its mission needs, as facilitated by the input of DNDD and
          other components; therefore, we request that this recommendation not be included in the
          OIG's fmaI report.


          Recommendation 4: "Update prescribed internal regulatory processes to implement the
          recommendations above."

          Response: Nonconcur. The proposed action plan for implementing Recommendations I and
          2 of the draft report does not require "regulatory" action (such as revisions to the Department
          of Homeland Security Acquisition Regulations). While any process changes must
          accompany our actions related to Recommendations 1 and 2, our action plans with respect to
          Recommendations J and 2 will ensure implementation of these items, including all necessary
          internal policy and guidance documents. Therefore, we request that this recommendation not
          be included in the OIG's final report.


          Comments on Report Content

          The following comments are provided in accordance with the draft report sections as
          specified below. Under separate memorandum, we have provided comments regarding the
          Department's concerns with respect to the release of certain information included within this
          report to the general public; specifically, because release of this information raises the risk of
          law enforcement circumvention (i.e., is law enforcement sensitive and therefore exempted
          from release, pursuant to 5 USC 552 82, 87(e)).

          J. Section entitled "'Executive Summary". Page J

             A. General Comment:

          Draft Report Language: The draft report does not include an adequate or complete
          definition of detection equipment. Although basic types of detection equipment are
          mentioned with this section, there is no definition of detection equipment that compliments
          the scope of the DIG's audit.

          Comment: Recommend the inclusion of a definition of detection equipment in the final
          report, similar to the following:

              "tn common law enforcement terms, "detection equipment" can be defined as an
              instrument or machine that will allow an officer to determine the specific type, class or
              nature of material, object or organism that is sequestered from view and not under the


                                                                                                           3




                     DHS Department-wide Management of Detection Equipment 


                                                     Page 18
 

Appendix B
Management Comment to the Draft Report


                                                                                       Attachment

                     Deputy Chief Procurement Officer's Response to Draft DIG Report:
                       "DHS Department-wide Management ofDetection Equipment"


              direct view of that officer. Within the context of this report the tenn "detection
              equipment" refers to a specific type of instrument or apparatus that is designed
              specifically to detennine whether or not a conveyance or person is carrying a material
              that is emitting radiation. A number of these instruments have been designed not only to
              detennine the presence of such radioactive emissions but also to identify the radioisotope
              that is present and causing the emissions."

              B. Page I. second paragraph. fourth sentence:

           Draft Report Language: "Without departmental oversight, some components have not
          always acquired the best-performing personal and hand-held radiological and nuclear
          detection equipment available to meet mission needs and ensure the safety ofofficers in the
          field."

          Comment: Recommend the removal of this sentence from the final report, because this
          statement is derived from the draft report subsection entitled "Departmental Oversight,"
          which includes a fundamental misunderstanding of the differences between the Department's
          acquisition of radiological and nuclear detection systems for DHS Components, as opposed
          to the purchasing of radiological and nuclear detection systems by state and local law
          enforcement agencies using FEMA grant funds. Alternative language for the draft report
          subsection entitled "Departmental Oversight" is included below.

          2. Section entitled f'Background." pages 2 through 5:

             A. Page 2. third paragraph. second sentence.

          Draft Report Language: "For fiscal year 2010, the components had a combined inventory
          ofover $3.2 billion ofdetection equipment."

          Comment: Request the revision of this sentence to reflect the fact that most of this inventory
          has been deployed and is not stored in warehouses. Recommended revised language is as
          follows:

              "For fiscal year 20 I0, the components had a combined inventory of over
              $3.2 billion of detection equipment, a majority of which is deployed."


              B. Page 2. third paragraph. third and fourth sentences.

          Draft Report Language: "TSA and eBP omitted some equipment items in their responses
          to our data call request. For example, TSA did not include its personal and hand-held
          radiation detectors, and eBP did not include its walk-through metal detectors."



                                                                                                        4




                     DHS Department-wide Management of Detection Equipment 


                                                   Page 19
 

Appendix B
Management Comment to the Draft Report


                                                                                        Attachment

                      Deputy Chief Procurement Officer's Response to Draft OIG Report:
                        "DHS Department-wide Management of Detection Equipment"


          Comment: Request the revision of these sentences to reflect that, although certain
          equipment was not included in response to the DIG's original data call, in response to a
          subsequent data call inventory data for this equipment was provided to the audit team.


               C. Page 4. first complete paragraoh. first sentence.'

          Draft Report Language: "DHS' Office ofthe ChiefProcurement Officer (OCPO) is
          responsible for all DHS acquisition activities and services, including management,
          administration and oversight, financial assistance, and strategic and competitive sourcing."

          Comment: Recommend revising this sentence to correctly represent the role of OCPO.
          While OCPO is responsible for the oversight of most DHS acquisition activities, it is not
          responsible for financial assistance (the Office of the Chief Financial Officer is responsible
          for financial assistance). Therefore, we recommend the following or similar language to
          replace the current sentence:

               "DHS 's Office of the Chief Procurement Officer (OCPO) is responsible for oversight of
               most DHS acquisition activities and services, including management, administration,
               oversight, and strategic sourcing."

          3.   Section entitled "Results ofAudit. "pages 5 through 14:

               A. Page 7, Figure 3. second fOotnote.'

          Draft Report Language: "··CBP did not include walk-through metal detectors in
          inventory numbers provided to us. "

          Comment: Request the revision of this footnote to reflect that, although certain equipment
          was not included in response to the DIG's original data call, in response to a subsequent data
          call inventory data for this equipment was provided to the audit team.

               B. Page 8. Figure 4. fOotnote:

          Draft Report Language: "·CBP and TSA omitted items from their reported inventory. CBP
          did not include walk-through metal detectors, and TSA did not report any personal radiation
          detectors. "

          Comment: Request the revision of this footnote to reflect that, although certain equipment
          was not included in response to the DIG's original data call, in response to a subsequent data
          call inventory data for this equipment was provided to the audit team.




                                                                                                           5




                     DHS Department-wide Management of Detection Equipment 


                                                    Page 20
 

Appendix B
Management Comment to the Draft Report


                                                                                     Attachment

                     Deputy Chief Procurement Officer's Response to Draft OIG Report:
                       "DHS Department-wide Management ofDetection Equipment"



              C. Page 1/. subsection entitled "Departmental Oversight":

           Draft Report Language: "Departmental Oversighl- DHS needs to improve its oversight of
          detection equipment by taking a stronger leadership role over the selection ofradiological
          and nuclear detection equipment. The department only requires components to select
          radiological and nuclear detection equipment which meet minimum standards. Congress
          mandated that the Domestic Nuclear Detection Office (DNDO) set Technical Capability
          Standards and implement a test and evaluation program for radiological and nuclear
          detection equipment. However, DNDO does not make recommendations or rank test results
          on the types ofequipment the components purchase. As a result, the department may not be
          fully using the expertise ofDNDO personnel and components may be acquiring detection
          equipment that may not be the most effective or provide the greatest protection for its front
          line officers. In 2005, National Security Presidential Directive 43 and Homeland Security
           Presidential Directive 14 created the Domestic Nuclear Detection Office (DNDO) to expand
          and improve radiological and nuclear detection capabilities. Congress mandated DNDO to
          set Technical Capability Standards and to implement a test and evaluation program. The
          test and evaluation program provides aframeworkfor testing radiological and nuclear
          detection equipment. The framework provides performance, suitability, and survivability
          information, and related testing for preventive radiological and nuclear defection equipment.
          However, the scientific community has not yet accepted DNDO 's framework as an industry
          standard. Currently, the American National Standards Institute (ANSI) N42 standards are
          the minimum performance baseline for radiation detection equipment. DNDO is responsible
          for the acquisition ofradiological and nuclear detection equipment for DRS and receives
          directfundingfor these equipment purchases. However, according to senior officials at
           DNDO, it cannot make recommendations, but can only provide unranked test results and
          capabilities 0/ the types ofmodels available to the components. DNDO is required to
          acquire the equipment the component selects as long as it meets the minimum standard/or
          radiological and nuclear detection equipment. DNDO's mission is to expand and improve
          radiological and nuclear detection capabilities. Allowing the components to select an
          equipment model that only meets the minimum standards when improved technology is
          available may impede DNDO's mission and does not ensure that DHS is providing the best
          available equipment to its/rontline officers. For example, components use PRDs as a
          passive, first alert radiation indicator to protect personnel. Two components that use this
          equipment use different types and have different approaches to its use and issue,




                                                 The hand-held radiation detector is another type 0/


                                                                                                       6




                    DHS Department-wide Management of Detection Equipment 


                                                  Page 21
 

Appendix B
Management Comment to the Draft Report


                                                                                      Attachment

                    Deputy Chief Procurement Officer's Response to Draft OIG Report:
                      "DHS Department-wide Management ofDetection Equipment"


          equipment that the components purchase that only needs to meet minimum standards (ANSI).
          These devices, which identifY the fype ofradiation emittedfrom a detected radioactive
          source, are designed to detect both gamma and neutron rays. I




          Response: Recommend this subsection be deleted because it is inaccurate. DNDO
          purchases all radiological and nuclear detection equipment for CSP and the other DHS
          Components. The draft report contains a fundamental misunderstanding of the differences
          between the Department's acquisition of radiological and nuclear detection systems for DHS
          Components, as opposed to the purchasing of radiological and nuclear detection systems by
          state and local law enforcement agencies using FEMA grant funds. This subsection also
          includes the following erroneous statement "The department only requires components to
          select radiological and nuclear detection equipment which meet minimum standards." There
          is no such departmental requirement. Further, DNDO is not bound by policy or law to only
          procure equipment that meets minimum standards, yet this subsection suggests that this is the
          current DHS practice. Therefore, we recommend the following or similar language be
          inserted in lieu of the entire subsection in the draft report:

                     Departmental Oversight

             DNDO conducts all acquisitions for radiological and nuclear detection equipment
             on behalf of the various DHS components. The DNDO acquisition process for
             radiological and nuclear detection equipment for DHS components is divided into
             two parts; one for legacy and one for next generation systems. When DNDO was
             created in 2005, DHS components were already acquiring various radiological
             and nuclear detection devices based upon threat and operational considerations as
             known prior to or in the fonnative years ofDHS. These legacy systems were
             deployed; users were trained; and maintenance chains were set in place. DNDO
             has, and will, continue to procure these legacy systems, based upon joint
             acquisition plans from each component while next generation systems are
             developed, as necessary.

             For new detector systems, such as the recently completed Advanced Handheld,
             the acquisition process is quite different. DNDO is the lead for any new
             radiological and nuclear detection system acquisitions for DHS. DNDO works
             with the component(s) to define a set of requirements that both meet the


                                                                                                      7




                    DHS Department-wide Management of Detection Equipment 


                                                   Page 22
 

Appendix B
Management Comment to the Draft Report


                                                                                  Attachment

                  Deputy Chief Procurement Officer's Response to Draft DIG Report:
                    "DHS Department-wide Management ofDetection Equipment"


            operational need of the end-user(s) and the technical effectivness needs ofDNDO.
            Special consideration is paid to selecting requirements to develop a common
            system that can be operated by multiple components. DI DO technical
            requirements are based upon a combination of threat guidance and pathway
            analysis provided by the Global Nuclear Detection Architecture. New detectors
            are subject to rigorous testing including an independent Operational Test, which
            substantiates usability and effectiveness. Next generation systems can be either
            custom systems developed for specific solutions or they can be commercial-ofT-
            the-shelf systems, which provide the necessary features and functions.




                                                                                               8




                   DHS Department-wide Management of Detection Equipment 


                                                Page 23
 

Appendix C
Major Contributors to This Report


                    Linda Howard, Director
                    Sam Bellino, Audit Manager
                    Patricia Benson, Auditor-in-Charge
                    Paul Exarchos, Program Analyst
                    Falon Newman-Duckworth, Program Analyst
                    Enrique Leal, Program Analyst
                    Jeffrey Balsewicz, Program Analyst
                    Anthony Colache, Independent Referencer




                  DHS Department-wide Management of Detection Equipment 


                                         Page 24
 

Appendix D
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                  DHS Department-wide Management of Detection Equipment 


                                         Page 25
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
